                    February 29, 2000

                    JAMES P. WADE
                    VICE PRESIDENT, INTERNATIONAL BUSINESS

                    SUBJECT: Review of the International Travel Process –
                             Phase II, Lodging Expenses
                             (Report Number RG-LA-00-001)

                    This report presents the results of our second review on
                    international travel expenses in the Postal Service. The
                    objective of our first review was to determine whether
                    international travel was authorized in accordance with
                    Postal Service travel regulations. We initiated this review to
                    evaluate the reasonableness of Postal Service policy
                    pertaining to lodging expenses for international travel.

Results in Brief	   We concluded that lodging expenses appeared to be
                    reasonable for the 39 international travel vouchers we
                    reviewed. Specifically, for these vouchers we determined
                    that lodging expenses were only 9 percent above the
                    Department of State lodging rates for international travel.
                    While Postal Services travel policies and procedures
                    encouraged prudent planning of travel, they did not set
                    expense limits for lodging for international travel. Thus, in
                    order to assess the reasonableness of lodging expenses we
                    referred to the lodging rates used by the Department of
                    State.

Background 	        Title 39, Section 410 of the United States Code gives the
                    Postal Service the authority to establish its own travel
                    policies. Postal Service Handbook F-15, Travel and
                    Relocation, is the policy and procedures manual for both
                    international and domestic travel.




                             Restricted Information
Review of the International Travel Process Phase II 	                                RG-MA-00-001




                                Handbook F-15 states that when traveling on official
                                business, the traveler is expected to perform duties in a
                                professional manner and with the same care and prudence
                                as if traveling at the traveler’s own expense. Specifically,
                                the handbook requires travelers to:

                                •	 Plan their itinerary to accomplish the travel with a
                                   minimum investment of time and expense.

                                •	 Select the least costly mode of transportation that
                                   provides adequate service.

                                The handbook also requires that when considering lodging
                                rates, approving officials must: (1) take into consideration
                                the traveler’s efforts to secure less costly housing; and
                                (2) fully assess the cost of lodging by analyzing the distances
                                from lodging facilities to the work assignment and the related
                                transportation costs.

Objective, Scope, and           The objective of the review was to evaluate the
Methodology                     reasonableness international travel lodging expenses. To
                                accomplish our objective, we judgmentally selected travel
                                data gathered by the San Mateo, California, Accounting
                                Service Center. Vouchers included in our review were
                                processed from May 20, 1998, through May 21, 1999. The
                                vouchers totaled $445,000 and represented about
                                13 percent of the total international travel expenses for that
                                period. We conducted interviews with appropriate Postal
                                Service officials and reviewed support for travel vouchers
                                and related Postal Service travel policies. We also
                                compared Postal Service lodging expenses to Department of
                                State lodging guidelines.

                                Our review was conducted between September 1999 and
                                February 2000 in accordance with the President’s Council
                                on Integrity and Efficiency, Quality Standards for
                                Inspections.




                                                       2
                                            Restricted Information
Review of the International Travel Process Phase II                                RG-MA-00-001




Lodging Expenses               Postal Service Handbook F-15, Travel and Relocation
                               establishes the policies for both international and domestic
                               travel. Handbook F-15 states that when traveling on official
                               business, the traveler is expected to perform their duties in a
                               professional manner and with the same care and prudence
                               as if traveling at the traveler’s own expense. However,
                               Handbook F-15 does not identify reimbursable lodging rates
                               for international locations. Therefore, we compared lodging
                               rates as listed by the Department of State, PD Supplement
                               425, dated October 1, 1999, Foreign Per Diem Rates to
                               lodging expenses claimed on the travel vouchers to
                               determine whether lodging expenses were reasonable.

                               We judgmentally selected 50 international travel vouchers
                               with expenses totaling about $470,000. Three of the
                               vouchers were excluded because they included domestic
                               travel, leaving 47 vouchers valued at $445,000. Of these 47
                               vouchers, eight did not include lodging expenses. The
                               remaining 39 vouchers included lodging costs totaling about
                               $63,000. Our review revealed that lodging costs for 17
                               vouchers were at or below the reimbursable rates
                               established by the Department of State by about $2700.
                               The remaining 22 vouchers contained lodging costs that
                               were above the Department of State rates by about $8200.
                               Collectively, the lodging expenses in the 39 vouchers
                               exceeded Department of State lodging rates by only about
                               $5500 or 9 percent, which we considered reasonable.

                               We appreciated the cooperation and courtesies provided by
                               your staff during the review. If you have any comments on
                               this report, please forward them to this office no later than
                               March 16, 2000. If you have any questions, please contact
                                              ,              , or me at (703) 248-2300.



                               Sylvia L. Owens
                               Assistant Inspector General
                                for Revenue Cost Containment

                               cc: John R. Gunnels




                                                      3
                                           Restricted Information
Review of the International Travel Process Phase II                 RG-MA-00-001




Major Contributors to
This Report




                                                      4
                                           Restricted Information
